PROOF OF SERVICE
I, the undersigned, declare that I am employed in the city of Los Angeles,
California. I am over the age of eighteen (18) years and I am not a party to the within
action.
On February 11th > 20211 served the following document:
APPELLANT’S PETITION FOR WRIT OF MANDAMUS AND WRIT OF
CERTIORARI TO THE UNITED STATES SUPREME COURT
AND APPENDIXES
[X ] BY MAIL-1 placed each such sealed envelope, with postage thereon
fully prepaid for first class mail, for collection and mailing at Los Angeles,
California, following ordinary business practices.
SEE SERVICE LIST
[ ]
STATE-1 declare under the penalty of perjury under the laws of the State of
California that the foregoing is true and correct.
I declare under penalty of perjury under the laws of the United
States of America the foregoing is true and correct.
DATED: February 11th , 2021

Stan Bethel

41

improvements on the Shenandoah Property. It does not address the fact that
Martin-Bragg herself testified to this in court. How is it then, that Mr. Moore has
been found by this court, not to have an ownership interest in this case? Why was
Judge Bendix mysteriously removed when she was assigned to this case for over a
year with no objections from any party? How is it then that the Court of Appeals
used the precedential case of Ford vs. Superior Court in deciding the Unlawful
Detainer action, but completely avoided it and ignored it in the underlying action?
This is the type of exceptional circumstances that warrant the use of this Court’s
power. This Court can put an end to this type of outrageous deplorable conduct.
CONCLUSION
For the reasons stated, this Court should issue a writ of mandate ordering
the California Supreme Court to reverse and remand its rulings January 15th, 2020
and or grant a Writ of Mandamus on the questions presented here. For the reversal
of its ruling in Moore / Hills v Martin-Bragg and remand back to the Los Angeles
Superior Court for new trial consistent with Ford v Superior Court. Order a new
trial on all issues consistent with must protect the rights of the Petitioners in this
case regarding real property and personal property rights, and mandate the State
of California to do so. Petitioners have no other adequate remedy. Such serious
and fundamental denials and violations of due process of law regarding real
property and personal property must be stopped.
Dated: February 11th ,2021

Respectfully Submitted

RONALD HILLS

IVAN‘RENE MOORE
39

US SUPREME COURT RULE 33.2 CERTIFICATION
Petitioners Ronald Hills and Ivan Rene Moore do certify that this Writ has been
prepared pursuant to US Supreme Court Rules, Rule 33.2, and that this writ is 39
(Thirty-Nine) pages long.
Dated:

Ronal

February 11th, 2021

van Rene Moore

.s

40

Additional material
from this filing is
available in the
Clerk's Office.

